Broadcasting, Inc. Bylaws. This additional information is available upon request from
our office.

The findings and recommendations contained in this report do not necessarily represent
CPB management’s final position on these matters. CPB management will make final
management decisions on the recommendations in this report in accordance with CPB’s
audit resolution procedures.

Based on WYIN’s response to the draft report, we consider recommendations 1
resolved but open pending CPB management’s decision accepting WYIN’s corrective
actions and recommendation 2 is unresolved.




                                           2
                                   BACKGROUND
WYIN, also known as Lakeshore Public Television, operates under a community license
issued by the Federal Communications Commission to the Northwest Indiana Public
Broadcasting, Inc. Lakeshore Public Television signed on the air in November 1987 as
WYIN Channel 56.

Positioned in the Chicago Designated Market Area, WYIN serves Northwest Indiana
and Chicago. WYIN provides programming to 14 counties in Indiana and Illinois,
reaching people in rural areas, small towns, and major cities with regional and national
programming. In February 2004, with a $2 million state grant, Lakeshore Public
Television installed a digital antenna and digital tuner, adding four channels (17.1, 17.2,
17.3 and 17.4). Channels17.1 and 17.4 are currently operating.

CSG award amounts are determined by the NFFS reported by stations on its AFRs.
The CSG calculation process starts with amounts appropriated for the television CSG
pools adjusted by the base grant, distance and local service grant amounts. The funds
that remain are called the Incentive Grant Pools. The Incentive Rate of Return (IRR) is
calculated by dividing the Incentive Grant Pools by the total amount of NFFS claimed by
all television and radio stations in the system. The IRR is then multiplied by the
station’s reported NFFS to calculate the incentive award amount of the station’s total
CSG. There is a two year lag between the reported NFFS and CPB’s calculation of the
fiscal year’s CSG award amount. To illustrate, CPB used the NFFS claimed on WYIN’s
FY 2008 AFR to determine the amount of its FY 2010 CSG award to WYIN.

WYIN’s annual CSG awards totaled $1,207,987 ($592,164 in FY 2010 and $615,823 in
FY 2011). In addition to the CSG awards, WYIN received $66,427 in TV
Interconnections and Fiscal Stabilization grants during our audit period for a total of
$1,274,414 in CPB awards. Each CSG grant can be spent over a two-year period. The
FY 2010 CSG can be spent over the period from October 1, 2009 through September
30, 2011. WYIN’s fiscal year covers the period October 1st through September 30th of
each year.

CPB’s cash payments to WYIN totaled $1,358,797 for FY 2010 and 2011, as itemized in
Exhibit A. WYIN recognizes the CSG revenues when the CPB Electronic Payment
Notification letter is received by the station.

WYIN’s AFRs reported total revenues of $9,758,565 per Exhibits B and C. WYIN
reported total NFFS of $5,067,881 as presented in Exhibit D.




                                             3
                             RESULTS OF REVIEW

We examined WYIN management’s assertions of compliance with CPB’s CSG
agreement terms, Financial Reporting Guidelines for reporting NFFS, Certification of
Eligibility requirements, and Act requirements for the periods ending September 30,
2010 and 2011. We also examined WYIN CSG and other grant revenue and expenses.
Management is responsible for WYIN’s compliance with CPB’s requirements. Our
responsibility is to express an opinion on management’s assertions about its
compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements, and accordingly, included examining, on a test
basis, evidence of WYIN’s compliance with those requirements and performing such
other procedures as we considered necessary. We believe that our examination
provides a reasonable basis for our opinion.

Our examination disclosed that WYIN was noncompliant with the statutory provisions of
the Communications Act and CPB requirements, as follows:

      open meeting requirements to provide quarterly on-air announcements of the
       station’s open public meetings policies;
      open financial records requirements to make the CPB Annual Financial Report
       and CPB grant financial reports available to the public; and
      requirements to develop documentation indicating the manner the station will
       comply with the five statutory requirements of the Communications Act; and
      the Independent Public Accountant’s (IPA) attestation of the AFR’s compliance
       with CPB’s NFFS reporting requirements.

In our opinion, except for the noncompliance items listed above, WYIN has complied
with CPB Financial Reporting Guidelines, Certification Requirements for station Grant
Recipients, CSG General Provision and Eligibility Criteria, and the Communications Act
for the periods ending September 30, 2010 and 2011.




                                          4
                     FINDINGS AND RECOMMENDATIONS

Noncompliance with the Communications Act

Our examination found that WYIN was not in full compliance with open meeting and
financial information requirements of the Act and CPB Certification Requirements for
Station Grants Recipients. Further, WYIN had not established operating procedures to
document how it complies with CPB requirements. In response to this finding, WYIN
officials said they were not completely aware of the various statutory requirements of
the Act, including the CPB requirement to prepare documentation to inform the public of
what information is available for review and the methods they should use to obtain this
information. WYIN officials acknowledged the need to comply with these requirements
and agreed to develop procedures that comply with the Act’s requirements.

       Open Meetings

Our examination of compliance with open meeting requirements found that adequate
advance notice of Board of Directors meetings was documented to verify that seven
days advance notice was given to the public. However, the Station Manager stated that
quarterly on-air announcements had not been made explaining the station’s open public
meetings policies prior to early 2012. Our review of station broadcast logs confirmed
the Station Manager’s statement.

Section 396(k)(4) of the Act (47 U.S.C. §396(k)(4)) prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

The Certification Requirements for Station Grants Recipients for open meetings states,
“all meetings that are required to be open to the public must also be preceded by
reasonable notice to the public.” Reasonable notice is defined as “notice that is both
reasonably expected to inform and appropriate to the purpose of the notice. Notice
should be directed toward those individuals who could be reasonably expected to have
an interest in attending the meeting. Notice should also be given in a manner that could
be expected to reach such individuals.”

The minimum compliance for “reasonable notice” requires that:

       1. Notice is placed in the “Legal Notices” or the radio and television schedules
          section of a local newspaper in general circulation in the station’s coverage
          area: or, notice is available through an announcement that is accessible on
          the station’s web page; and
       2. Notice is communicated by letter , e-mail, fax, phone, or in person to any
          individuals who have specifically requested to be notified; and


                                             5
       3. The station makes on-air announcements for at least three consecutive days
          once each calendar quarter that explain the station’s open meetings policy
          and provide information about how the public can obtain information
          regarding specific dates, times, and locations.

       Open Financial Records

While WYIN provided its audited financial statements on its web site, it did not post its
CPB Annual Financial Report and its Digital Distribution Fund (DDF), Round 11, Grant
#12301, financial report as required by the Act. These reports were not in the files
maintained for public review. The station’s lack of compliance with the open financial
records requirements deprives the public of the required information envisioned by the
Act.

The Certification Requirements for Station Grants Recipients addresses open financial
records, that include the AFR and Audited Financial Statements (AFS), as well as “other
information regarding finances submitter to CPB related to any funding agreement with
CPB that requires a final report.”

       Documenting Compliance with Requirements

Our examination found that WYIN had not established written policies and procedures
to ensure its compliance with the Act’s requirements for public meetings, open financial
records, Community Advisory Board, EEO records, and donor lists. As previously
mentioned, the station did not fully comply with open meetings and open financial
records requirements. The lack of policies contributed to its non-compliance. Further,
while the station was able to retrieve the financial and EEO information from its
databases for our audit, the station did not have documented procedures in place to
provide operating guidance for staff to follow to achieve compliance with the Act’s
requirements.

Documentation guidelines for all sections of the Act obligate each station “to develop
documentation indicating the manner of compliance” with each requirement. CPB’s
Certification Requirements for Station Grant Recipients provides guidance to establish
written procedures addressing open meetings, open financial records, Community
Advisory Board, EEO information, and donor lists. Each recipient of a CPB station grant
should develop documentation explaining how the station complies with these
requirements.

This documentation should address the procedures for conducting open meetings and
the methods used to give reasonable notice to the public; the types of financial and
EEO information to be made available to the public, including the mechanisms used to
give the public access to this information. This documentation shall be kept by each
station at a reasonable location and made available to CPB, upon request, to determine
the fact and extent of compliance with these requirements.




                                            6
Such procedures should specify how the station actually goes about complying with
each of the five sections of the certification requirements. These procedures not only
provide operating guidance for station officials, but also provide the public with
information about how the station complied with these grant requirements.

Through our discussions with station officials, it appeared that WYIN officials were not
fully aware of the Act’s requirements for open meetings, making financial and EEO
information available to the public, and establishing written operating procedures to
ensure compliance with the Act requirements during our audit period. Additionally,
WYIN had not established adequate controls over the annual grant certification process
to ensure compliance with all the CPB grant requirements in applying for a new grant.
The Administrative Coordinator advised us that senior management relies on
information provided by the external annual audit to certify the station’s compliance with
CPB grant requirements.

The station’s lack of compliance with these requirements deprived the public of the
required information envisioned by the Act. This information provides transparency, as
well as, informs the public about how the station operates. WYIN obtained annual
funding based on an inaccurate certification of compliance with CPB requirements.

   Recommendations

1) We recommend that CPB require WYIN management to fully comply with all
   requirements of the Act and provide CPB with documentation of its compliance with
   the following requirements over the next fiscal year:

   a) Make on-air announcements for at least three consecutive days once each
      calendar quarter that explain the station’s open meeting policy and provide
      information on how the public can obtain information regarding specific dates,
      times, and locations of public meetings. Maintain documentation of station on-air
      announcements aired, including the date and time of each announcement.
   b) Develop controls that ensure that financial records provided to the public include
      any agreements with CPB that requires a financial report.
   c) Establish written implementing policies on the station’s practices for all of the
      Act’s requirements, including open meetings, maintaining open financial records,
      Community Advisory Board activities, making EEO information available to the
      public, and securing donor lists.

      Managements Response

   WYIN’s response did not dispute these findings. WYIN’s response identified the
   corrective action taken to comply with open meetings and open financial records
   requirements as referenced in their written response provided in Exhibit F. They are
   now making quarterly on-air announcements on at least three consecutive days
   explaining its open meeting policy and how to obtain information on its next public
   meeting. Additionally, their response included written policies addressig the five



                                            7
   Communications Act requirements for open meetings, open financial records,
   Community Advisory Board, EEO and donor lists.

       OIG Review and Comments

   Based on WYIN’s response, we consider recommendations1. a-c resolved but open
   pending CPB’s acceptance of WYIN’s corrective actions.


The Independent Public Accountant’s Attestation of Non- Federal Financial
Support Was Not Conducted Properly

Our examination of the IPA’s work papers prepared during their annual audit of WYIN’s
financial statements and attestation of WYIN’s NFFS found that the attestation was
provided to CPB without conducting any tests of NFFS eligibility under CPB’s financial
reporting guidelines. In fact, the lead auditor that provided oversight of the audit told us
that she was not aware of the CPB Financial Reporting Guidelines (Guidelines) for
reporting NFFS prior to our discussion with her. As a result, they did not use the
specific criteria in the Guidelines to test WYIN’s reporting of NFFS. CPB relies on the
IPA to conduct an attestation examination to provide CPB with assurance that the
claimed NFFS is accurate and complies with CPB Guidelines. Not testing for NFFS
reporting compliance did not provide CPB with the level of assurance anticipated by
requiring an attestation examination be conducted and certified to CPB.

CPB Guidelines for preparing the AFR state that the NFFS attestation is considered an
integral part of the AFR. In accordance with requirements of the American Institute of
Certified Public Accountants (AICPA); an attestation is a conclusion about the reliability
of a written assertion that is the responsibility of another party. CPB requires that
grantee AFRs be examined by an IPA in accordance with attestation standards adopted
by the AICPA.

When the IPA completes the CPB Accountant’s Qualification Statement the IPA certifies
that “they are qualified to express an opinion on the grantee’s assertion of its
compliance with CPB’s Fiscal Year Financial Reporting Guidelines governing the
amounts reported as Non-federal Financial Support.”

   Recommendation

2) We recommend that CPB management require WYIN to ensure its IPA conducts an
   attestation examination of its AFR in accordance with the AICPA and CPB Financial
   Reporting Guidelines.




                                             8
   Managements Response

WYIN’s response did not dispute this finding. WYIN’s response provided a copy of
their engagement letter with its IPA to perform an agreed-upon-procedures
engagement to test NFFS and express an opinion on management’s assertions
about compliance with CPB’s FY 2012 Financial Reporting Guidelines.

   OIG Review and Comments

Based on WYIN’s response, we consider recommendation 2 unresolved because
the CPB guidelines require that the IPA perform an attestation examination in
accordance with the AICPA standards. Under the AICPA Codification of Statements
on Standards for Attestation Engagements, an engagement performed under
agreed-upon-procedures is not an examination as defined under AT Section 101,
Attest Engagements of the Codification and does not provide an opinion. Under AT
Section 201, Agreed-Upon Procedures Engagement, the IPA is performing the
procedures agreed to by the client. In performing an attestation examination
engagement under AT Section 101 the IPA is free to choose the procedures
performed to provide an independent opinion on compliance.




                                      9
                                                                                               Exhibit A

                            Schedule of CPB Payments to WYIN
                                 October 1, 2009 – September 30, 2011


                      Grant                      Grant Amount           Payment           Payment Date

    CPB Digital Distribution Funds (DDF) for
                                                                 1
    round 11, priority 2                              $345,983                $84,383           1/11/2010

    FY 2010 TV Community Service Grant                $592,164
                                                                             $296,082          10/26/2009
                                                                             $296,082          03/09/2010
    FY 2010 TV Interconnection Grant                    $11,810
                                                                               $5,905          10/26/2009
                                                                               $5,905          03/09/2010
    FY 2011 TV Community Service Grant                $615,823
                                                                             $307,912          11/09/2010
                                                                             $307,911          02/23/2011
    FY 2011 TV Interconnection Grant                    $11,869
                                                                               $5,935          11/09/2010
                                                                               $5,934          02/23/2011
    Fiscal Stabilization Grant                          $42,748
                                                                              $42,748          01/13/2010

              CPB Total Payments                                           $1,358,797

          Note: CPB payments were recognized as revenues when WYIN received the Electronic Payment Notice
                from CPB.




1
 Grant award executed by CPB on February 4, 2009, prior to the beginning of our audit period on
October 1, 2009.

                                                     10
                                                                                       Exhibit B

                               WYIN Annual Financial Report
                                Year Ending September 30, 2010

Line                                         Schedule                                    FY 2010
       Schedule A, Source of Income:
1      Amounts provided directly by federal government agencies                                 -0-
2.A.   CPB - Community Service Grants                                                     $592,164
2.B.   CPB – Digital Project Grants                                                         91,383
2.D.   CPB - TV Interconnection grants                                                      11,810
2.E.   CPB - all other funds                                                                42,748
2.F.   PBS - all payments except copyright royalties and other pass-through payments            -0-
2.H.   Public broadcasting stations - all payments                                              -0-
3      Local boards and departments of education                                                -0-
4      State boards and departments of education                                           109,837
5      State colleges and universities                                                          -0-
6      Other state-supported colleges and universities                                          -0-
7      Private colleges and universities                                                        -0-
8      Foundations and nonprofit associations                                              200,000
9      Business and industry                                                              1,371,074
10     Memberships and subscriptions                                                       834,307
13     Auction Revenue (gross revenue)                                                     169,841
14     Special Fundraising Revenue (gross expenses)                                        165,326
15     Passive Income                                                                        6,406
17     Endowment Revenue                                                                        -0-
18     Capital fund contributions                                                          116,485
19     Gifts and bequests from major individual donors                                          -0-
20     Other Direct Revenue                                                                     -0-
21                                         Total Revenue                                 $3,711,381

       Adjustments to Revenue:
22     Federal revenue from Line 1                                                              -0-
23     Public broadcasting revenue from Line 2                                            $738,105
24     Capital funds exclusion (from line 18a) - TV only                                   116,485
25     Other revenue on Line 21 not meeting criteria to be included as NFFS                294,247
26     Other automatic subtractions from total revenue                                      93,138
27                        Total Direct Nonfederal Financial Support                      $2,469,406

                                                     11
                                                                               Exhibit B (cont.)

                           WYIN Annual Financial Report
                             Year Ending September 30, 2010

Line                                         Schedule                                  FY 2010
       Schedule C, In Kind Contributions of Services and Other Assets:
4      Total in-kind contributions (professional services)- eligible as NFFS             $5,366
5      In-kind Contributions Ineligible as NFFS                                          32,570
6                Total In-kind Contributions - services and other assets                $37,936
10                   Total Expenses and Investment in Capital Assets                  $4,252,635


       Schedule E, Expenses:
       Program Services
1      Programming and production                                                     $1,294,716
2      Broadcasting and engineering                                                     994,569
3      Program information and promotion                                                 10,410
       Support Services
4      Management and general                                                           866,493
5      Fundraising and membership                                                       613,279
6      Underwriting and grant solicitation                                              360,739
7      Depreciation and amortization                                                     38,755
8                                      Total Expenses                                 $4,178,961
9      Total capital assets purchased or donated                                         73,674
10                   Total Expenses and Investment in Capital Assets                  $4,252,635




                                                  12
                                                                                        Exhibit C

                            WYIN Annual Financial Report
                                Year Ending September 30, 2011

Line                                        Schedule                                     FY 2011
1       Amounts provided directly by federal government agencies                               -0-
2.A.    CPB - Community Service Grants                                                   $615,823
2.D.    CPB - TV Interconnection grants                                                    11,869
2.E.    CPB - all other funds                                                                  -0-
2.F.    PBS - all payments except copyright royalties and other pass-through payments          -0-
2.H.    Public broadcasting stations - all payments                                            -0-
2.I.    Other PBE funds                                                                        -0-
3       Local boards and departments of education                                              -0-
4       State boards and departments of education                                         145,252
5       State colleges and universities                                                        -0-
6       Other state-supported colleges and universities                                        -0-
7       Private colleges and universities                                                      -0-
8       Foundations and nonprofit associations                                            200,000
9       Business and industry                                                            1,423,080
10      Memberships and subscriptions                                                     906,687
13      Auction Revenue (gross revenues)                                                  129,290
14      Special Fundraising (gross revenue)                                               138,283
15      Passive Income                                                                      4,043
16.A.   Gains from sales of property and equipment                                       2,469,357
17      Endowment Revenue                                                                      -0-
18.A.   Capital Fund Contributions                                                          2,500
19      Gifts and bequests from major individual donors                                     1,000
20      Other Direct Revenue                                                                   -0-
21                                        Total Revenue                                 $6,047,184


        Adjustments to Revenue:
22      Federal revenue from Line 1                                                            -0-
23      Public broadcasting revenue from Line 2                                          $627,692
24      Capital funds Exclusion                                                             2,500
25      Other revenue on Line 21 not meeting criteria to be included as NFFS              272,405
26      Other automatic subtractions from total revenue                                  2,553,478
27                        Total Direct Nonfederal Financial Support                     $2,591,109
9       Total capital assets purchased or donated                                         153,715
10                   Total Expenses and Investment in Capital Assets                    $4,253,726

                                                  13
                                                                            Exhibit C (cont.)

                           WYIN Annual Financial Report
                             Year Ending September 30, 2011

Line                                         Schedule                               FY 2011
       Schedule C, In Kind Contributions of Services and Other Assets:
4      Total in-kind contributions - eligible as NFFS                                 $2,000
5      In-kind Contributions Ineligible as NFFS                                       20,690
6                 Total In-kind Contributions - services and other assets            $22,690


       Schedule E, Expenses:
       Program Services
1      Programming and production                                                  $1,260,879
2      Broadcasting and engineering                                                  931,140
3      Program information and promotion                                                  -0-
       Support Services
4      Management and general                                                        844,539
5      Fundraising and membership                                                    574,470
6      Underwriting and grant solicitation                                           455,020
7      Depreciation and amortization                                                  33,963
8                                      Total Expenses                              $4,100,011
9      Total capital assets purchased or donated                                     153,715
10                   Total Expenses and Investment in Capital Assets               $4,253,726




                                                  14
                                                                         EXHIBIT D

        WYIN Summary of Non-Federal Financial Support FY 2010-2011
         Certification by Head of Grantee and Independent Accountant's Report

 Line                             Description                  FY 2010      FY 2011

          Summary of Non-Federal Financial Support:

1.        Direct Revenue (Schedule A)                          $2,469,406   $2,591,109
3.        In-Kind Contributions (Schedule C)                        5,366        2,000
4.        Total Non-Federal Financial Support                  $2,474,772   $2,593,109




                                                15
                                                                            Exhibit E

                         SCOPE AND METHODOLOGY
We performed this audit as a compliance attestation examination under the Government
Auditing Standards. Our objectives were to determine whether WYIN reported NFFS in
accordance with CPB Guidelines; complied with Certification of Eligibility requirements
and selected provisions of the Communications Act of 1934; and, spent grant funds in
accordance with grant terms. We performed our field work during the period July 2012
through November 2012.

The scope of the audit included tests of the AFRs, Schedules A, and C, and the data
reported on them for the periods ending September 30, 2010 and 2011. We tested the
accuracy of the $5,067,881 million of NFFS claimed on WYIN’s AFRs by performing
financial reconciliations and comparisons to underlying accounting records and the
audited financial statements to verify transactions recorded in the general ledger and
reported on the AFRs. We evaluated compliance with CPB Guidelines, in part, by
reviewing internal controls and the IPA’s work performed for membership cash receipts.
We also reviewed source documentation for underwriting agreements, state revenue,
auction revenue and production revenue. We tested NFFS revenues of $2,006,960
(39.6 percent) judgmentally selecting large transactions from high risk revenue
categories.

We tested $148,296 of $1,277,016 (11.6 percent) CPB CSG grant expenditures. The
bulk of the grant funds were spent on dues/memberships costs. Our judgmental
samples focused on larger transactions, including other operating costs to determine
compliance with grant agreement terms. We reviewed documentation of WYIN’s
compliance with the Communications Act requirements. Specifically, we reviewed
WYIN’s advance notice of the Board of Directors public meetings, Community Advisory
Board requirements, financial information made available to the public, Equal
Employment Opportunity (EEO) reports, and donor list and political activities
requirements. Additionally, we interviewed WYIN staff to identify station operations
relating to Act compliance.

To assist in our audit planning and assure ourselves that we could rely on the work
performed by WYIN’s independent public accountant (IPA), we met with representatives
of the firm that conducted WYIN’s financial statement audit and attestation work on the
AFRs. We reviewed the firm’s work papers documenting tests of internal controls and
its fraud risk assessment analysis. We were unable to evaluate the work performed by
the IPA on the accuracy of WYIN’s AFRs because the IPA did not test the reporting of
NFFS against CPB reporting guidelines.

We gained an understanding of WYIN’s internal controls over the preparation of the
AFRs and cash receipts as part of our overall risk assessment by interviewing staff and
senior management. We used this understanding to plan our audit work and select
those areas that posed the greatest risk to the accurate reporting of NFFS.


                                          16
